<html>
<title> - HEARING TO REVIEW S. 959, SMITHSONIAN AMERICAN WOMEN'S HISTORY MUSEUM ACT; AND S. 1267, NATIONAL MUSEUM OF THE AMERICAN LATINO ACT</title>
<body><pre>[Senate Hearing 116-339]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-339

             HEARING TO REVIEW S. 959, SMITHSONIAN AMER-
               ICAN WOMEN'S HISTORY MUSEUM ACT; AND 
               S. 1267, NATIONAL MUSEUM OF THE AMER-
               ICAN LATINO ACT

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           NOVEMBER 17, 2020

                               ----------                              

    Printed for the use of the Committee on Rules and Administration
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                  Available on http://www.govinfo.gov                  
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-358                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                  

                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     2
Hon. Susan Collins, a U.S. Senator from the State of Maine.......     5
Hon. John Cornyn, a U.S. Senator from the State of Texas.........     7
Hon. Robert Menendez, a U.S. Senator from the State of New Jersey     8
Lonnie G. Bunch III, Secretary, Smithsonian Institution..........    13
Jane Abraham, Former Chair of the Congressional Commission to 
  Study the Potential for a National Women's History Museum......    15
Danny Vargas, Chairman, Friends of the National Museum of The 
  American Latino................................................    17
CiCi Rojas, Chair, The Latino Coalition Foundation...............    19
Eva Longoria Baston, Actor, Activist, and Member of Commission to 
  Study the Potential Creation of a National Museum of The 
  American Latino................................................    20

                    Prepared Statement/Testimony of:

Hon. Susan Collins, a U.S. Senator from the State of Maine.......    28
Hon. John Cornyn, a U.S. Senator from the State of Texas.........    30
Hon. Robert Menendez, a U.S. Senator from the State of New Jersey    32
Lonnie G. Bunch III, Secretary, Smithsonian Institution..........    35
Jane Abraham, Former Chair of the Congressional Commission to 
  Study the Potential for a National Women's History Museum......    40
Danny Vargas, Chairman, Friends of the National Museum of The 
  American Latino................................................    42
CiCi Rojas, Chair, The Latino Coalition Foundation...............    47
Eva Longoria Baston, Actor, Activist, and Member of Commission to 
  Study the Potential Creation of a National Museum of The 
  American Latino................................................    50

                  Materials Submitted for the Record:

Blunt--Klobuchar--Letter from the Hispanic Bar Association of the 
  District of Columbia...........................................    53
Blunt--Klobuchar--Letter from Hispanics in Philanthropy..........    55
Blunt--Klobuchar--Letter from Jorge A. Plasencia.................    58
Blunt--Klobuchar--Letter from the LA Collab......................    60
Blunt--Klobuchar--Letter from Latinos for Tennessee..............    63
Blunt--Klobuchar--Letter from Lili Gil Valletta, Vice Chair, 
  Friends of the American Latino Museum..........................    66
Blunt--Klobuchar--Letter from the League of Minority Voters......    68
Blunt--Klobuchar--Letter from the Joes Andres Think Food Group...    70
Blunt--Klobuchar--Letter from the National Hispanic Medical 
  Association....................................................    72
Blunt--Klobuchar--Letter from Senator Gustavo Rivera, New York 
  State Senate...................................................    74
Blunt--Klobuchar--Letter from TDU Tires USA......................    78
Blunt--Klobuchar--Letter from Attorney General Sean D. Reyes, 
  State of Utah..................................................    80
Blunt--Klobuchar--Letter from the Young Women's Christian 
  Association....................................................    82
Klobuchar--Letter from Minnesota Counsel on Latino Affairs.......    85
Klobuchar--List of National Latino American Museum Supports in 
  Minnesota......................................................    86
Klobuchar--Letter from the 3M Corporation........................    87
Klobuchar--Letter of Support from members of Congress Jose 
  Serrano and Will Hurd..........................................    89
Hon. Susan Collins--Letter from the American Historical 
  Association....................................................    90
Hon. Susan Collins--Letter from Denise Doring VanBuren, President 
  General, National Society Daughters of the American Revolution.    91
Hon. Susan Collins--Letter from Federally Employed Women.........    92
Hon. Susan Collins--Letter from the National Foundation for Women 
  Legislators....................................................    93
Hon. Susan Collins--Letter from the National Coalition for 
  History........................................................    94
Hon. Susan Collins--Letter from the National Conference of 
  Women's Bar Associations.......................................    95
Hon. Susan Collins--Letter from the Women's Business Development 
  Center.........................................................    96
Hon. Susan Collins--Letter from the Women's Foundation California    97
Hon. Susan Collins--Letter from Women in Aerospace...............    98
Hon. Susan Collins--Letter from Women in Defense.................    99
Hon. Susan Collins--Letter from the Women's Suffrage Centennial 
  Commission.....................................................   100
Hon. Bob Menendez--New York Times Story ``Where is the 
  Smithsonian Museum for American Latinos?''.....................   101
Jane Abraham--Written Remarks for the Presentation of Commission 
  Recommendations to Congress, November 16, 2016.................   104
Jane Abraham Executive Summary on the Report to Congress and the 
  President of the United States.................................   108
Jane Abraham --The American Museum of Women's History, Snapshot 
  Summary of the Congressional Commission's Purpose, Conclusions 
  and Recommendations, November 16, 2016.........................   118
Jane Abraham --The American Museum of Women's History 
  Congressional Commission Report to the President of the United 
  States and Congress, November 16, 2016.........................   121
Jane Abraham --American Women's History Museum, Addendum--
  Projections on Museum Capital and Operating Costing, November 
  12, 2020.......................................................   224
Jane Abraham --Update from the Commissioners of the 2016 U.S. 
  Congressional Commission to Study the Potential for an American 
  Museum of Women's History......................................   229
Jane Abraham --Opening Letter of the Report to Congress and the 
  President of the United States, November 16, 2016..............   237
Danny Vargas--Letter from the 3M Corporation.....................   239
Danny Vargas--Letter from the Acevedo Foundation.................   241
Danny Vargas--Letter from LA Collab..............................   244
Danny Vargas--Letter from the American Jewish Committee..........   247
Danny Vargas--Letter from the Arizona Latino Legislative Caucus..   248
Danny Vargas--Letter from Azteca Enterprises, Inc................   251
Danny Vargas--Letter from Bienvenido.............................   253
Danny Vargas--Letter from the Casa de Esperanza: National <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82cee3f6ebecc2">[email&#160;protected]</a> 
  Network for Healthy Families and Communities...................   255
Danny Vargas--Letter from the Congressional Hispanic Caucus......   258
Danny Vargas--Letter from the Congressional Hispanic Leadership 
  Institute......................................................   262
Danny Vargas--Letter from City Projects, LLC.....................   263
Danny Vargas--Letter from the Coca-Cola Company..................   265
Danny Vargas--Letter from former United States Attorney General 
  Alberto R. Gonzales............................................   268
Danny Vargas--Letter from the Hispanic Alliance for Career 
  Enhancement....................................................   270
Danny Vargas--Letter from the Hispanic Association on Corporate 
  Responsibility.................................................   273
Danny Vargas--Letter from the Hensel Phelps Construction Co......   276
Danny Vargas--Letter from the Hershey Company....................   279
Danny Vargas--Letter from the Yale Center for the Study of Race, 
  Indigeneity, and Transnational Migration.......................   280
Danny Vargas--Letter from the Hispanic 100.......................   288
Danny Vargas--Letter from the Hispanic Heritage Foundation.......   289
Danny Vargas--Letter from the Hispanic Lobbyists Association.....   291
Danny Vargas--Letter from the Hispanic National Bar Association..   293
Danny Vargas--Letter from JacksonLewis P.C.......................   296
Danny Vargas--Letter from the Latino Community Foundation........   299
Danny Vargas--Letter from Elianne Ramos, Latino Justice..........   302
Danny Vargas--Letter from the Latinx Entertainment Industry......   304
Danny Vargas--Letter from the Latino Business Action Network.....   311
Danny Vargas--Letter from the League of Minority Voters..........   313
Danny Vargas--Letter from the League of United Latin American 
  Citizens.......................................................   315
Danny Vargas--Letter from Luz Collective Inc.....................   317
Danny Vargas--Letter from Mayor Eric Garcetti, City of Los 
  Angeles........................................................   319
Danny Vargas--Letter from Meridian Design........................   321
Danny Vargas--Letter from the Miami Dade College, Office of 
  Cultural Affairs to Ranking Member Klobuchar...................   323
Danny Vargas--Letter from the Miami Dade College, Office of 
  Cultural Affairs to Chairman Blunt.............................   325
Danny Vargas--Letter from Carmen Ronan of Molera Alvarez 
  Government and Public Affairs Firm.............................   327
Danny Vargas--Letter from Ruben Alvarez of Molera Alvarez 
  Government and Public Affairs Firm.............................   329
Danny Vargas--Letter from the National Alliance for Hispanic 
  Health.........................................................   331
Danny Vargas--Letter from the National Latino Evangelical 
  Coalition......................................................   332
Danny Vargas--Letter from the National Association of Latino 
  Elected and Appointed Officials................................   334
Danny Vargas--Letter from the National Association of Latino 
  Independent Producers..........................................   336
Danny Vargas--Letter from the National Hispanic Medical 
  Association....................................................   339
Danny Vargas--Letter from Nikkie Whaley..........................   341
Danny Vargas--Letter from the National Latino Farmers and 
  Ranchers Trade Association.....................................   344
Danny Vargas--Letter from the National Urban League..............   347
Danny Vargas--Letter from Omega Contracting, Inc.................   348
Danny Vargas--Letter from Jorge Plasenica of Republica Havas.....   350
Danny Vargas--Letter from the Republican National Hispanic 
  Assembly.......................................................   352
Danny Vargas--Letter from Rosa J. Correa, Former National Museum 
  of the American Latino Commissioner............................   357
Danny Vargas--Letter from Sergio Fernandez de Cordova de Veyga...   359
Danny Vargas--Letter from Society of Hispanic Professional 
  Engineers......................................................   362
Danny Vargas--Letter from the Latino Coalition...................   364
Danny Vargas--Letter from the Joes Andres Think Food Group.......   367
Danny Vargas--Letter from T-Mobile...............................   369
Danny Vargas--Letter from UnidosUS...............................   371
Danny Vargas--Letter from the Venezuelan Endowment for the Arts..   373
Danny Vargas--Letter from Voto Latino............................   375
Danny Vargas--Letter from the We are all Human Foundation........   377
Danny Vargas--Letter from the Walt Disney Company................   379
Danny Vargas--Letter from Waste Management.......................   381

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Lonnie G. Bunch III, Secretary, Smithsonian 
  Institution....................................................   383
Hon. Hyde-Smith, a U.S. Senator from the State of Mississippi to 
  Lonnie G. Bunch III, Secretary, Smithsonian Institution........   387
Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Jane Abraham, Former Chair of the Congressional 
  Commission to Study the Potential for a National Women's 
  History Museum.................................................   390
Hon. Hyde-Smith, a U.S. Senator from the State of Mississippi to 
  Jane Abraham, Former Chair of the Congressional Commission to 
  Study the Potential for a National Women's History Museum......   391
Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Danny Vargas, Chairman, Friends of the National 
  Museum of The American Latino..................................   393
Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to CiCi Rojas, Chair, The Latino Coalition Foundation.   396
Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Eva Longoria Baston, Actor, Activist, and Member of 
  Commission to Study the Potential Creation of a National Museum 
  of The American Latino.........................................   398

 
 HEARING TO REVIEW S. 959, SMITHSONIAN AMERICAN WOMEN'S HISTORY MUSEUM 
      ACT; AND S. 1267, NATIONAL MUSEUM OF THE AMERICAN LATINO ACT

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2020

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
301, Russell Senate Office Building, Hon. Roy Blunt, Chairman 
of the Committee, presiding.
    Present: Senators Blunt, Klobuchar, Capito, Wicker, 
Fischer, Feinstein, Udall, Warner, and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Good morning. I want to thank my colleagues 
for attending today's hearing, some virtually, some in person. 
The same for our witnesses, and we are going to be welcoming 
them as well. Mr. Lonnie Bunch, the Secretary of the 
Smithsonian Institution, Mrs. Jane Abraham, Former Chair of the 
Congressional Commission to Study the Potential for a National 
Women's History Museum, Ms. CiCi Rojas, Chairman of the Latino 
Coalition, and Mr. Danny Vargas, Chairman of the Friends of the 
National Museum of the American Latino. I want to thank all of 
them for joining us.
    We will hear from a number of Senators who have spent time 
on this and have been sponsors of this bill, Senator Collins, 
Senator Cornyn, Senator Menendez will all be joining us for 
remarks following the remarks of the three of us here at the 
dais. This is Secretary Bunch's second appearance before the 
Senate Rules Committee. We are grateful to have him with us 
today. He was appointed the Secretary of the Smithsonian 
Institution in June 2019. Lonnie, what a first year you have 
had. Obviously, COVID forced the closure of all 19 of the 
museums for the first time ever, and it happened in the middle 
of March of this year. That really created an opportunity and a 
requirement for Secretary Bunch and the great staff at the 
Smithsonian to even further turn to their already substantial 
digital efforts. They launched Smithsonian Cares, a new website 
that aggregates the Smithsonian's many online resources.
    In addition to Smithsonian Cares, the Smithsonian offers a 
learning lab that is an online tool created specifically to 
work with teachers and students in distance learning. No shock 
that the learning lab had a 500 percent increase from March 
2019 to March 2020, and I suspect that increase has only 
continued to grow. Established in 1846, the Smithsonian, now 
170 years later, encompasses 19 museums and galleries, numerous 
research and educational facilities, the National Zoo, a 
growing collection of 155 million objects and specimens of 
various kinds.
    We are here today to discuss whether the Congress should 
authorize the addition of two new museums to the Smithsonian's 
vast portfolio, specifically a Smithsonian Museum of Women's 
History and a National Museum of the American Latino. We truly 
have an expert witness on the whole idea of new museums and 
expanding museums. Secretary Bunch was the founding director of 
the African National Museum of African-American History and 
Culture and really led that entire 11 year process of planning 
and constructing the 400,000 square foot museum that tells a 
powerful story. There are other powerful stories to be told, 
and that is what we are talking about today, the vibrant 
stories of American women and American Latinos. How important 
they are.
    I would say also, I just mentioned 11 years in that other 
effort that Secretary Bunch was so involved in. No matter what 
we decide here today, these critically important stories need 
to be told in better and more substantial ways than they have 
been in the past. During a long period of time it would take to 
accomplish the goal we are talking about today, assuming we set 
that goal in 2021, the Smithsonian is set to open a permanent 
4,500 square foot Latino gallery named the Molina Gallery, 
thanks to a $10 million gift from the Molina family, and the 
Smithsonian's Latino Center continues to show--to be a showcase 
for that experience.
    At the direction of the congressional Commission on the 
Study of the Potential Creation of a National Women's Museum, 
and again, Ms. Abraham is here to talk about that, the 
Smithsonian launched its own American Women's History 
Initiative in 2018. That initiative has since raised $10 
million toward the development of exhibitions, programs, 
educational materials and digital content across the 
Smithsonian space.
    I look forward to hearing Secretary Bunch's update on all 
this important work, which again, we need to continue to 
encourage and figure what we can do to tell this story in a 
better way. Even if we decide to have these two new museums, 
they will not be available for a while.
    Senator Klobuchar, I want to turn to you for any opening 
remarks you might have. Then we are going to recognize Senator 
Feinstein and then the three Senators who have joined us who 
have also been sponsors of this legislation. Senator Klobuchar.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman Blunt. I 
am so glad that we are holding this important hearing today. We 
have much to do, including pandemic relief, but I was looking 
back, as you were talking, about during the Depression 
actually, if you go back to the 30's, one of Franklin 
Roosevelt's main programs was the Public Works of Art Project. 
One of them is actually hanging in my office that I have on 
loan from a Minnesota museum.
    As you mentioned, these museums will take years to build, 
but I actually think now is a good time to actually get this 
started and to get this passed. I am particularly excited to 
hear from our colleagues, Senator Collins and Feinstein, who 
are here, as well as Senator Menendez and Senator Cornyn. I am 
pleased to be a co-sponsor of both of these bills, and I 
believe these new museums are critical to expanding our 
understanding of the remarkable contributions that women and 
Latino Americans have made throughout the history of our 
country.
    The Smithsonian Institution was founded on the noble 
principle that as a Nation we must strive to expand our 
knowledge and to spread that knowledge widely. Nearly 175 years 
later, the Smithsonian continues to fulfill its mission, having 
grown to become the world's largest museum, education and 
research complex. We should all be proud of it. Every year, 
this year different with a pandemic, but every year tens of 
millions of people visit the museums, galleries, the National 
Zoo. The National Mall is lined with the iconic structures that 
comprise the crown jewels of the Smithsonian. When families 
come to Washington and they visit these museums, they think 
that they are seeing the complete representation, of course, of 
the history of our Nation. Unfortunately, that is not always 
the case.
    The fact that our museums do not adequately portray the 
contributions of women and Latino Americans has been well 
documented. In 1999, President Clinton signed an executive 
order to establish a commission to better identify the 
accomplishments of women in our Nation's history and to 
consider whether we should establish a women's museum. In 1994, 
the Smithsonian issued a report regarding the lack of 
representation of Latino Americans or their contributions to 
our Nation. Of course, there have been recommendations for both 
of these museums by several commissions in the past. Even 
though the need for these two museums is clear, the path to 
getting it done is not always clear.
    We know that these projects can take a long time, as the 
chairman pointed out, and they will require a tremendous level 
of resources, and let's get this, momentum. The success of the 
newest Smithsonian museum, the National Museum of African-
American History and Culture, certainly sets a high standard 
for any museum moving forward, but as Secretary Bunch discusses 
in his testimony, it didn't just happen overnight. In fact, it 
took 13 years from the passage of Congressman Lewis's bill 
until the museum opened in September 2016. Under that timeline, 
even if the legislation we are discussing today was signed into 
law tomorrow, the museums wouldn't be open to the public until 
maybe 2034. That is why I would make the case we should pass 
legislation as soon as possible so that the hard work to create 
these museums can truly begin.
    When I arrived in the Senate, there were only 16 women 
Senators led by our dean at the time, the great Senator Barbara 
Mikulski from Maryland, who during her time in the Senate was a 
key leader of the legislation to establish a women's history 
museum. As we know, this year marks an important milestone in 
our democracy, the centennial of the 19th Amendment 
guaranteeing women in America the right to vote. We now have 26 
women Senators, which is an all-time high. Women continue to 
break barriers. Earlier this month, our colleague, Senator 
Kamala Harris, became the first woman elected to be Vice 
President of the United States.
    I loved one of the graphics that had been sent around 
online after the election and it says, ``ladies, make sure to 
wear shoes because there is glass everywhere.'' My witness 
today is a Latina woman who knows about breaking barriers. Eva 
Longoria is a trailblazer for Latinos in the film industry. She 
is known for her work both in front of and behind the camera, 
and continues to lead the charge of diverse and female 
representation in the industry and beyond. In addition to 
speaking about the need for a women's history museum, she can 
provide a powerful voice in support of an American Latino 
museum. American Latinos have been a vital part of our country 
since its founding, and it is past time for their contributions 
and experiences to be honored with a museum on the National 
Mall. I think it is very significant that our colleagues are 
here today, that both these bills before us have passed the 
House, that both these bills before us have strong leadership, 
bipartisan leadership, Democrats and Republicans coming 
together.
    It is my hope that we can add both of these bills to our 
final executive business meeting for the 116th Congress and 
work to get the bills passed this year, not next year, not the 
year after. As I point out, Roosevelt did this in the middle of 
the Depression where he saw the future, something that wouldn't 
get done now, but something that would help us to plan ahead 
for a decade from now. Think about the kids that are watching. 
Think about the kids that want to go to that museum and see 
that women are honored, that Latinos are honored.
    This is our moment, colleagues, to do something really 
great by the end of the year. Thank you.
    Chairman Blunt. Thank you, Senator Klobuchar. Senator 
Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman and 
Ranking Member Klobuchar and fellow members of the committee. 
Thank you for including the Smithsonian American Women's 
History Museum Act in today's hearing. It has been a while 
coming and I am very grateful. I am pleased to join my friend 
and colleague, Senator Collins, in introducing this bipartisan 
bill to establish a National Women's History Museum. It has 
been a long time coming, and in the Senate our 13 co-sponsors 
include every woman who sits on this committee, Mr. Chairman.
    I thank Ranking Member Klobuchar, Senators Capito, Fischer, 
Hyde-Smith, and Cortez Masto for their support. In February, 
the House overwhelmingly passed the companion to our bill by a 
vote of 374 to 37. It is my hope that this legislation can get 
done by the end of the year and we can celebrate the 100th 
anniversary of the 19th Amendment giving women the right to 
vote with this commission.
    From the earliest days of our Nation, women have made 
substantial and lasting contributions. I don't know why the 
recognition process has been so difficult but it has been, and 
I think the election of women to places of power like political 
bodies has made a difference, but the fact is, American women 
have transformed the fields of science, government, literature, 
medicine, and so much more. It is well past time that we 
establish a museum that specifically pays tribute to this 
history. It would honor and recognize tremendous collective 
achievements of American women and will help to tell a more 
complete story of our past.
    Just a bit of history. In 2014, Congress established an 
independent, bipartisan commission to study the potential for 
creating a National Women's History Museum. Mrs. Jane Abraham, 
Chair of that commission, is here with us today and will be 
testifying. The Commission submitted its report to Congress in 
November 2016 with a unanimous recommendation to establish a 
comprehensive Women's History Museum. The report further 
recommends that this museum be on a prominent location on or 
near the National Mall and that it be established as an 
official part of the Smithsonian. The bill we are considering 
today incorporates the Commission's recommendations and moves 
us closer to the realization of what I saw begin on this 
committee, Mr. Chairman, 25 years ago, and that is to establish 
this museum.
    The Act would establish it's run by the Smithsonian. It 
would be part of the Smithsonian creative process to determine 
a location for it on the National Mall and appoint leadership 
to carry out its construction and operations. I just want to 
say that I am very proud to be here. I welcome Senator Collins' 
support and leadership. It has been fantastic. I also thank 
you, Senator Klobuchar. As women have gained in this body, I 
think we have gained our ability to achieve this legislation. 
Thank you very much, Mr. Chairman.
    Chairman Blunt. Thank you, Senator Feinstein. Senator 
Collins.

 OPENING STATEMENT OF HONORABLE SUSAN COLLINS, A UNITED STATES 
                 SENATOR FROM THE STATE OF MAIN

    Senator Collins. Good morning. Good morning, Chairman 
Blunt, Ranking Member Klobuchar, Senator Feinstein, and other 
members of this committee. Let me begin by thanking you for 
holding this hearing on legislation to establish new museums, 
including the bill that Senator Feinstein and I have introduced 
called the Smithsonian American Women's History Museum Act. Mr. 
Chairman, Ranking Member Klobuchar, this cause to establish a 
Women's History Museum has always been a bipartisan one. The 
very first bill that I introduced to create such a museum was 
in 2003. At that time, Senators Barbara Mikulski and my dear 
colleague Senator Feinstein, were co-sponsors of that bill.
    This year, as we commemorate the 100th anniversary of 
women's suffrage and the decades-long fight for women's 
equality at the ballot box, it is fitting that we at long last 
establish an institution in our Nation's capital to honor 
American women. Women have made invaluable contributions to our 
country in every field: government, business, medicine, law, 
literature, sports, entertainment, the arts, and the military. 
As Senator Klobuchar mentioned, here in the Senate, we have a 
record number of women, 26 in all serving. When I first became 
a Senator, there were only nine of us. Telling the history of 
American women matters. It inspires girls to know that there 
are no boundaries to their potential. A museum recognizing the 
achievements and experiences of American women is long overdue.
    In 1999, a Presidential Commission on commemorating women 
in our history concluded that, ``an appropriate celebration of 
women's history in the next millennium should include the 
designation of a focal point for women's history in our 
Nation's capital.'' In 2014, Congress took the important step 
toward realizing this goal when it passed legislation creating 
an independent, bipartisan Commission to study establishing 
such a museum right here in Washington, DC.
    After 18 months, the bipartisan commission unanimously 
concluded that America needs and deserves a physical National 
Museum dedicated to showcasing the historical experiences and 
impact of women in this country. I agree wholeheartedly with 
the Commission's conclusion and I want to thank Jane Abraham 
for her leadership in heading the Commission. Following the 
Commission's recommendations, Senator Feinstein and I 
introduced legislation to create an American Women's History 
Museum that would collect, study, and create programs 
incorporating and exhibiting a wide spectrum of women's 
experiences, contributions, and history. It would be part of 
the Smithsonian Institution, ensuring that it is free and open 
to all who visit Washington and would be representative of the 
diverse viewpoints held by American women.
    It is important to emphasize that this museum would portray 
all aspects of women's contributions to our history without 
partisanship or bias. It would share the stories of pioneering 
women such as abolitionist Harriet Tubman, the founder of the 
Girl Scouts, Juliette Gordon Low, Supreme Court Justices Sandra 
Day O'Connor and Ruth Bader Ginsburg, leading suffragists like 
Maine's own Florence Brooks Whitehouse, and so many others. The 
Commission also recommended a Smithsonian-wide American Women's 
History Initiative.
    Since 2018, Congress has provided nearly $10 million in 
Federal funding toward this important step toward creating the 
museum. Building on these successes, our bill calls for a 
funding commitment from both the private sector and the federal 
government following the successful model used by the National 
Museum of African-American History and Culture. Mr. Chairman, 
Ranking Member Klobuchar, our bill enjoys broad bipartisan 
support, and I want to thank the women Senators who serve on 
this committee as well as others for co-sponsoring it. It is 
also supported by several organizations, and I would ask that 
their letters of support be entered into the record without 
objection. I also want to acknowledge the steadfast leadership 
of Congresswoman Carolyn Maloney and Congressman Brian 
Fitzpatrick, who have led the effort on the House side.
    In February, the House passed its bill by an overwhelming 
bipartisan vote of 374 to 37. Mr. Chairman, Ranking Member 
Klobuchar, as our women's suffrage centennial year draws to a 
close, I can think of no better way to honor those women and 
that momentous achievement than by passing the Smithsonian 
American Women's History Museum Act.
    I would note in closing, Mr. Chairman, that in Washington 
we all enjoy the many museums along the National Mall that 
commemorate various aspects of our history and our culture. We 
even have a museum that celebrates buildings. Surely if we can 
have a museum that celebrates buildings, we ought to have one, 
and are long overdue in establishing one, that celebrates the 
many contributions of American women to our Nation. Thank you 
very much, Mr. Chairman.
    [The prepared statement of Senator Collins was submitted 
for the record.]
    Chairman Blunt. Thank you, Senator Collins. Senator Cornyn.

  OPENING STATEMENT OF HONORABLE JOHN CORNYN, A UNITED STATES 
                SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Good morning, Chairman Blunt, Ranking 
Member Klobuchar. It is great to be here with all of you, 
including our good friend Senator Collins and the rest of the 
members of this committee. As a proud Texan and a Senator from 
a border state, I have been fortunate to experience firsthand 
the tremendous influence of Latinos on our country and culture 
throughout my life. From learning the stories of the brave 
soldiers who fought in the Texas revolution to experience the 
vast influence of the Hispanic culture in my hometown of San 
Antonio, I am incredibly proud and appreciative of the Latino 
influence on Texas and American life.
    Unfortunately, for many Americans the contributions of 
generations of Latinos are largely unknown, and I hope this 
committee will soon take action to right this wrong by 
advancing legislation to establish a National Museum of the 
American Latino. This effort has been underway for more than 25 
years. I note Senator Collins talking about the long journey of 
the women's museum. These are not hastily--these museums are 
not hastily established. I think a lot of thought has gone into 
both, but in particular, the Latino Museum has been an idea 
that, whose time has now come for more than 25 years.
    In the 1990's, the Smithsonian Institution commissioned a 
report to examine the relationship between the museum and 
Latinos. It was entitled, notably, Willful Neglect. Those two 
words adequately sum up the findings. For everything from a 
lack of exhibits to curators to staff, Latinos were excluded at 
virtually every level of the world's largest museum complex. 
According to a 2018 report by UCLA, not much progress has been 
made. Latino representation within the Smithsonian is still far 
from what it should be, even as the Latino population in 
America has doubled.
    One of the recommendations of the initial 1994 report to 
improve representation of Latinos was through the establishment 
of a museum dedicated to the contributions of Latino Americans. 
As I said, that was more than 25 years ago. Congress has not 
yet authorized this critical museum. With the support of this 
committee and this Congress, I hope that will change. Every 
year, millions of Americans visit the Smithsonian to learn 
about our Nation's complex and fascinating story, and the men 
and women who helped write it. These museums teach us about: 
American Presidents, soldiers, artists, astronauts, innovators, 
icons and heroes of every breed. They house priceless artifacts 
of American history from the Star Spangled Banner, which 
inspired the National anthem, to the hat that President Lincoln 
wore the night he was assassinated.
    For too long, these museums haven't told the whole story of 
the rich diversity of our country. That is slowly changing due 
to the recent additions of the National Museum of the American 
Indian and the National Museum of African-American History and 
Culture, but we still have a ways to go. The process of 
creating a National Museum of the American Latino began in 2008 
in earnest when President George W. Bush established a 
Commission to study the feasibility of such a museum, and 
again, when their report was released in 2011.
    Now that it has been nearly a decade since the Commission 
formally recommended this museum be built, it is time to act. 
The National Museum of the American Latino Act authorizes the 
Smithsonian Institution to create a museum honoring American 
Latinos here in Washington, and I am proud to have introduced 
this with our colleague, Senator Menendez, in a bipartisan 
fashion.
    This Congress and nearly 300 members of the House have co-
sponsored this legislation, and it unanimously passed the House 
earlier this year. The bill has 46 co-sponsors here in the 
United States Senate, and I hope the committee will soon 
favorably report this bill to the floor so we can send it to 
the President's desk before the end of this Congress. It has 
been more than 25 years since this effort began. It is time to 
honor the contributions of generations of Latinos by providing 
a brick and mortar home for their stories right here in our 
Nation's capital.
    Thank you again, Mr. Chairman and Ranking Member Klobuchar, 
for allowing me to join you here today to talk about this 
important step, and I am happy to answer any questions you 
might have, or failing that, I will go back to the Judiciary 
committee.
    [The prepared statement of Senator Cornyn was submitted for 
the record.]
    Chairman Blunt. Well thank you, Senator Cornyn. I don't 
know that we will have questions for the Senators here, though 
we certainly appreciate the fact that you have been here. 
Senator Collins, the co-sponsor of the women's museum bill. You 
and Senator Menendez, the sponsors of the museum representing 
and recognizing Latino contributions, but thank you for being 
here. Now we will turn to Senator Menendez for his remarks.

OPENING STATEMENT OF HONORABLE ROBERT MENENDEZ, A UNITED STATES 
              SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman, to you and 
to Ranking Member Klobuchar and members of the committee. Thank 
you for holding this important hearing to review S. 1267, the 
National Museum of the American Latino Act, a bill that would 
fill the most glaring gap in our National history and on our 
National Mall by authorizing the construction of a new museum 
dedicated to telling the Latino story.
    As a lead sponsor of S. 1267, I firmly believe it is time 
that Hispanic Americans get their own world-class museum on the 
National Mall, built and administered to the standards that 
only the Smithsonian Institution can uphold.
    This effort has been decades in the making. As our former 
colleagues, Congresswoman Ileana Ros-Lehtinen and Senator Ken 
Salazar of Colorado wrote in The New York Times this past 
Sunday and I quote, ``In 1994, a task force outlined the ways 
in which the Smithsonian, `almost entirely excludes and ignores 
Latinos in nearly every aspect of its operations.' ''
    Its report, Willful Neglect, offered 10 recommendations for 
improvement, including that it should support the development 
of a museum on the National Mall dedicated to honoring and 
preserving over 500 years of American Latino history and 
culture.
    Mr. Chairman, I would like to submit the entirety of their 
op-ed for the record.
    Chairman Blunt. Without objection.
    [The information referred to was submitted for the record.]
    Senator Menendez. Thank you. This is not a partisan issue. 
There is strong support from both sides of the aisle, as 
Senator Cornyn suggested, to establish a museum devoted to 
Hispanic American history. Our bill, S. 1267, has nearly 
unanimous support from Senate Democrats and six Republican co-
sponsors, an accomplishment that seems barely achievable in 
today's hyperpartisan environment.
    The companion bill in the House, H.R. 2420, passed the 
lower chamber by voice vote with overwhelming bipartisan co-
sponsorship. Presidents from both parties have supported the 
creation of a National Museum of the American Latino. In fact, 
the first bill to create the Commission to Study the Potential 
Creation of a National Museum of the American Latino was first 
introduced in the Senate back in 2004 by Senator Orrin Hatch, a 
Republican from Utah.
    Now is the time for Congress to finish what it started 
almost two decades ago. No one can deny that the 60 million 
Latino Americans living in this country will continue to shape 
America's future. Just as we have shaped America's past. From 
day one, Hispanics have shaped this Nation in countless ways as 
military leaders, as pioneers in business, in the arts, as 
activists and elected officials. Yet, the history and 
contributions of Hispanic Americans to the United States since 
its inception have been at best overlooked and at worst erased.
    When our Nation's children read their assigned American 
history textbooks, the presence of Latinos in the United States 
is missing. They are not taught that half a century before 
English-speaking colonies were settled in Jamestown, Virginia, 
Spanish was already being spoken in a settlement established in 
St. Augustine, Florida, or that Bernardo de Galvez, a Spanish 
colonel of the Louisiana regiment in New Orleans, thwarted 
every British advance in the area, helping the army of General 
George Washington win the American Revolutionary War. Neither 
are our children taught that the origins of Latino presence in 
the United States have little to do with economic migration as 
many--and more to do with the American expansion, which 
integrated Hispanic-occupied territories.
    These are but a fraction of the numerous examples of 
galleries and exhibitions the Smithsonian National Museum for 
the American Latino could house for millions of visitors all 
over the world to learn about. If there is anything this recent 
election has taught us is that both Democrats and Republicans 
have lots to learn about who the Latinos and Latinas living in 
this country are. We are not a monolithic community. Some of us 
have ancestors who lived on the American soil before there was 
an America. Some of us have immigrated to the United States 
from as many as 20 different countries around the Western 
Hemisphere seeking the promise of opportunity. We all have 
unique cultural identities that make us different. Yet, all of 
us live in the United States share a common bond, the 
continuous strive to make this country the best version of 
itself it can be. That is the story that only the Smithsonian 
Institution can tell.
    That is the history the National Museum of the American 
Latino will bring to life. It will inspire families, tourists, 
students, and people from all backgrounds to celebrate the 
diverse threads that bind the United States of America together 
as one Nation. Representation matters when it comes to our 
history. Imagine what it would mean to Latino children coming 
to visit our Nation's capital and seeing their ancestors' 
contributions to our country. What would it mean for children 
of different ethnic backgrounds to learn about the history of 
the people that look like their neighbors and their friends in 
school?
    These are the building blocks of acceptance and inclusion. 
It is hard to believe that a month and a half from 2021, a 
museum devoted to Latino history does not already exist in the 
Nation's capital. Today, I am sure some may argue that now is 
not the time to build new museums, that the Smithsonian has a 
maintenance backlog in the millions of dollars in order to 
bring every other older museum up to standards and that we must 
first address that backlog before beginning to discuss a new 
museum, but we have heard that excuse before, and I am sure 
Secretary Bunch heard that excuse many times before turning the 
dream of this Smithsonian National Museum of African-American 
History into a reality.
    We also must not forget that as S. 1267 has a 50/50 public 
and private cost sharing model. Pass the bill now and dare us 
to harness the economic power of Latinos and Latinas in the 
United States, and I guarantee you our community will meet the 
challenge. It is long past time for Congress to pass 
legislation to authorize the construction of this museum to 
celebrate the indelible history and contributions of Latino 
Americans to make America great.
    I thank the committee for the discussions, the importance 
of the bill, and I sincerely hope you will move forward to 
passage to finally make this dream a reality. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Menendez was submitted 
for the record.]
    Chairman Blunt. Thank you, Senator Menendez. We have one 
other co-sponsor of the bill who is also a member of the 
committee, who has a comment to make before we go to witnesses. 
Before that, do you have a unanimous--Senator Klobuchar----
    Senator Klobuchar. Yes. Mr. Chairman, I have a letter from 
the Minnesota Council on Latino Affairs and a list of names of 
prominent leaders in the Twin Cities Latino community in 
support of the National Museum of the American Latino Act. A 
letter of support from 3M, a major company in my state, that 
supports the establishing of this museum. A letter from the 
sponsors of the House legislation that would establish the 
National Museum of the American Latino. I ask unanimous consent 
that each of these items be included in the record.
    Chairman Blunt. Without objection.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Senator Capito, who is also a member of 
this committee and a co-sponsor of the bill, do you have some 
comments you would like to make?
    Senator Capito. I do. Thank you, Mr. Chairman. I would like 
to thank you and Ranking Member Klobuchar for the opportunity. 
I will be relatively brief. We have heard all of the wonderful 
contributions that the Smithsonian has made. We know that in 
2020 there have been, even in this year, 3.3 million visits 
free of charge for people to explore our great history and to 
learn more about the world around them. These two bills before 
the committee today will expand that ability of the Smithsonian 
to provide that high quality educational resource and to 
preserve our heritage.
    Passage of the Smithsonian American Women's History Museum 
Act and the National Museum of the American Latino Act will 
enable visitors to learn more about the impact that diverse 
groups have had in shaping our shared history. As you 
mentioned, I am the proud co-sponsor of both of these bills. I 
would like to thank my friend, former Representative Ileana 
Ros-Lehtinen, for prevailing upon me to be a co-sponsor of the 
National Museum of the American Latino Act. She in and of 
herself could be an exhibit, I believe.
    I am proud to co-sponsor both bills, as I said, and I want 
to recognize the leadership of all the co-sponsors and the main 
sponsors of these bills. We know we are marking the 100th 
anniversary of the 19th Amendment, which gives us the perfect 
time to say to American women and women around the world that 
we want to enshrine our history and make it available to all of 
the women around--the men and women around the world. We know 
we have a record number of women, Senator Klobuchar mentioned 
that, in Congress right now. I am proud to be the first woman 
to represent West Virginia in the United States Senate. I can't 
think of no better time.
    You know, in West Virginia, I created a program called West 
Virginia Girls Rise Up, which aims to inspire that next 
generation of female leaders. I ask the girls, I travel the 
state, and the fifth grade girls to encourage them to set goals 
for themselves and work to achieve them. I brought it to 
elementary and middle schools. I have had fantastic guests, 
Librarian of the Congress, Carla Hayden, the astronaut Peggy 
Whitson, our former Ambassador to the United Nations, Nikki 
Haley, and others. When I think of the women's museum, I think 
of those girls' faces that I see when I do my West Virginia 
Girls Rise Up visits and how excited they will be to be 
inspired by the contributions of past generations and to be 
able to give them the confidence to be a part of seizing that 
mantle of leadership in the next generation.
    Similarly, the National Museum of the American Latino is 
way overdue. We have heard for how many years it has been in 
the making. I am very, very excited about future generations 
viewing the contributions of Latinos all throughout this 
country and reminding us of our diversity has allowed our 
democracy to flourish.
    For these reasons, I am hopeful that we pass these--after 
our hearing, we pass these bills. I thank you again for letting 
me add my voice. I am a strong co-sponsor of both bills and I 
look forward to their passage. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator Capito. Senator Udall.
    Senator Udall. Thank you, Chairman Blunt, a pleasure to be 
here with everyone today. I am pleased to be here this morning 
to discuss these two bills authorizing new museums that 
celebrate our history, the Latino community and American 
women's history. These museums would recognize and celebrate 
our Nation's diverse heritage and has broad bipartisan. I am 
very pleased that this has broad bipartisan support.
    I am also proud to have had the chance to oversee the 
institution as both a member of this committee and as ranking 
member of the Senate Interior Appropriations subcommittee. In 
both roles, I have worked to make sure Congress is an active 
partner with the Smithsonian Institution and provides the 
resources that it needs to meet its obligations to advance the 
civic, educational, scientific, and artistic life of this 
Nation.
    We all know that the Smithsonian requires real investment 
to keep its existing museums operating, to expand its 
collections, to tell the story of all Americans, and to support 
the reach of its research and educational programs across the 
country. I expect we will hear this morning about the 
importance of gathering resources needed to take the next steps 
to bring inclusivity into the narrative of our American history 
through these museums to illuminate an American story for all.
    I look forward to hearing from my colleague, Secretary 
Bunch, and the advocates here today. Secretary Bunch--is he 
answering questions, Mr. Chairman, at this point?
    Chairman Blunt. We are not asking questions yet. We want to 
have his testimony first.
    Senator Udall. Thank you. Thank you Chairman.
    Chairman Blunt. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chairman, Ranking 
Member. Thank you to all my colleagues for their statements and 
to the witnesses today. Let me just say, as the first female 
Senator ever from the great State of Nevada and the first 
Latina ever elected to the United States Senate, I am so 
excited to be able to support these two museums. One of the 
things I think is so important to emphasize when we are 
discussing the future of these museums is that they are not 
just museums for one group of people. A women's history museum 
won't just benefit women and the Latino Museum is not just for 
Latino's to visit.
    Instead, these museums are for all of us to help us expand 
our understanding of what it means to be an American and learn 
more about the contributions of all those who have come before 
us and contributed to who we are today. In May 2011, the 
Commission to Study the Potential Creation of a National Museum 
of the American Latino reached the finding that a National 
Museum focused on American Latino history, art and culture is 
not only viable but essential to America's interests.
    Similarly, in November 2016, the Commission to Study the 
Potential Creation of a National Women's History Museum came to 
the unanimous conclusion that America needs and deserves a 
physical National Museum dedicated to showcasing the historical 
experiences and impact of women in this country. I strongly 
support passing these bills into law so we can start the 
process of building two essential museums that Americans need 
and deserve, but that also means we need to provide the 
Smithsonian Institution with the support it needs for staffing 
or maintenance and security of our existing museums and 
collections.
    It is long past time to make these new museums a priority. 
I hope we get serious today and in the future about making it 
happen. I am looking forward to the discussion today, both on 
the many reasons we should build these two museums and how to 
continue supporting the incredible public servants who make the 
Smithsonian the treasure that it is. Thank you so much, Mr. 
Chairman.
    Chairman Blunt. Thank you, Senator Cortez Masto. We will 
have the testimony now from all of our witnesses before we have 
time for questions. I would remind all of them that your 
written testimony is part of the record. You have 5 minutes and 
you can use that by going through your written testimony or 
summarizing it in whatever way you think is most effective.
    Again, we are going to start with Secretary Bunch, and 
Secretary Bunch, glad to have you back before the committee 
today.

     OPENING STATEMENT OF LONNIE G. BUNCH III, SECRETARY, 
                    SMITHSONIAN INSTITUTION

    Mr. Bunch. Okay. Chairman Blunt, Ranking Member Klobuchar, 
members of the committee, thank you for the opportunity to 
testify before you today. I am so grateful that you are 
exploring the creation of new museums at the Smithsonian. As 
the founding director of the National Museum of African-
American History and Culture, I am happy to share some insights 
I gained in building a museum that began without a staff, 
without a building, and without collections.
    Yet the broad and diverse popularity of the museum has 
shown us that Americans are excited about learning not only the 
culture of a community, but how that story shapes who we all 
are. As Congress considers museum legislation, we continue to 
provide our visitors with a broader and more inclusive history. 
We have integrated Latino and women's history, its art, 
culture, scientific achievements throughout the Smithsonian.
    In many ways, we have launched things that provide the 
foundation for any new museums. For example, we launched the 
American Women's History Initiative Because of Her Story in the 
year 2000. Let's see, is my video now on now? I am sorry.
    Chairman Blunt. Mr. Secretary, I think we lost your video 
again, but we do have the audio. We are working on the video if 
you want to continue--there you are.
    Mr. Bunch. Okay. Alright. For instance, we launched the 
American Women's History Initiative because of our story in 
2018. It is one of the country's most ambitious undertakings to 
research, collect, document, and display, and share women's 
compelling stories. It has established a pool of funds. It has 
increased online engagement. It has allowed us to do something 
crucial, hire curators, and develop internships to ensure the 
next generation. It has also helped us produce world-class 
exhibitions, including Votes for Women at the National Portrait 
Gallery and Girlhood (It's Complicated), which just opened at 
the National Museum of American History.
    Since 1997, we have also expanded representation of Latino 
Americans at the Smithsonian with our Latino Center. The Center 
administers a Latino Museum studies program. It has helped 
attract Latino curators, and it has helped us build the largest 
collection of United States Latino art among any of the 
Nation's major art museums. The Latino Center's new 
exhibitions, Baseball, will open next April in the National 
Gallery of American History, National Museum of American 
History, and one of its crowning achievements is the Molina 
Family Latino Gallery.
    When it opens in the spring of 2020, its inaugural 
exhibition, Presente, will give us a Latino history of the 
United States, which will be the first National Latino Gallery 
on the National Mall. Thank you for your ongoing support of the 
Latino Center and the Women's History Initiative. Creating new 
museums is challenging, but the Smithsonian has the skill, 
experience, and expertise to do it right.
    Obviously, it is something I care passionately about. We 
can create museums that meet the needs of the Nation and 
showcase the United States of the world--to the world, but to 
do so, there are several things we must determine: the public's 
expectations of a museum's size, program, new technology, 
collections, and staffing are all issues we have to think about 
and grapple with, and most importantly, a suitable location. 
Yet, irrespective of physical space, we have seen how important 
it is to reach audiences digitally. Since March, when our use 
of digital assets has dramatically increased, for instance, we 
created a learning lab, which is our free educational platform, 
which features millions of authentic digital resources.
    The Smithsonian Cares initiative is an extensive collection 
of our online resources that people can use from home, 
including open access collections, distance learning resources, 
online events, exhibitions, and podcasts. These considerations, 
as well as the design, construction, and operation of future 
museum costs must be part of any discussion. With the support 
of Congress, we continue to make headway addressing the backlog 
of maintenance costs through our major renovations and our 
targeted approach to maximizing our limited resources.
    Allocating resources between existing needs and new 
projects will always create tension. Appropriate resource 
levels can minimize that tension. Congressional support can 
help fund a new museum and continue to help us address our 
significant maintenance requirements. It would be crucially 
important for both to be addressed because we want to make sure 
that we can create and continue to prove--improve, provide high 
quality experiences for visitors. I trust that Members of this 
committee will understand and will plan for the long-term 
obligations the new museums would incur.
    Thank you for holding this hearing. It is important to me. 
Thank you for your ongoing support and for your commitment to 
sharing the experiences of all Americans. I am happy to answer 
any questions you may have.
    [The prepared statement of Mr. Bunch was submitted for the 
record.]
    Chairman Blunt. Thank you, Secretary Bunch. If you will 
stay with us, we are going to go ahead and have all of our 
witnesses testify and then everybody will be available for 
questions for whatever time we have for questions, but, again, 
thanks for your presence here today and your leadership at the 
Smithsonian.
    Jane Abraham is the Former Chairman of the Congressional 
Commission to Study the Potential for a National Women's 
History Museum, also on a Smithsonian effort looking at how 
that story is being currently told. Mrs. Abraham, we are glad 
you are here with us and look forward to your testimony.

OPENING STATEMENT OF JANE ABRAHAM, FORMER CHAIR, CONGRESSIONAL 
   COMMISSION TO STUDY THE POTENTIAL FOR A NATIONAL WOMEN'S 
                         HISTORY MUSEUM

    Mrs. Abraham. Thank you. Do I need to push something? 
There. Okay. Mr. Chairman, Ranking Member Klobuchar, members of 
the committee, and committee staff, thank you for inviting me 
to join you here today. I proudly stand in support of Senate 
Bill 959 to establish the first ever comprehensive Women's 
History Museum as part of the Smithsonian. I would like to tell 
you why I believe this is the best way to pay tribute to the 
remarkable role women have played in America's history.
    In December 2014, Congress considered this question 
important enough to form a bipartisan National Commission 
consisting of eight women, all appointed by House and Senate 
leaders and all from very different walks of life. I had the 
honor of chairing that Commission. Over 18 months, from July 
2015 through November 2016, we explored how to most effectively 
tell the story of women's phenomenal contributions to the 
history of America. As I am sure each of you knows, in 
Washington in recent years, finding bipartisan solutions to 
policy challenges can be nearly impossible.
    Indeed, any group of four Democrats selected by Speaker 
Pelosi and former Leader Reid, and four Republicans picked by 
then Speaker Boehner and Leader McConnell might be expected to 
reach an impasse on almost any policy solution. Trust me when I 
say our group of eight commissioners were an outspoken, 
opinionated group representing the full spectrum of political 
viewpoints, and no one was shy about expressing her views. The 
good news is we did not end up with gridlock. Instead, this 
bipartisan Commission found common ground. We found a way to 
stand together, work through differences, listen deeply to each 
other, respect and trust that we were committed to the same 
outcomes.
    Ultimately, that is the spirit that devised a democratic 
Government for America at its inception, and it is that spirit 
which this American Women's History Museum will recognize, 
elevate, and celebrate. We believe the unified bipartisan plan 
we forged together deserves your support and the support of the 
American people. Our overall conclusion was that America needs 
and deserves a National Museum, one that is part of the 
Smithsonian Institution, that is dedicated to the often untold 
stories of exceptional women who changed the course of our 
Nation's history.
    We now believe this museum is more important than ever. 
Such a National Museum will reflect all the many different 
ideas, perspectives, and causes that were championed, invented, 
and led by American women. It will remind us of our Nation's 
inspiring history and our limitless future. That is why we 
believe we can raise significant funds from the private sector 
to support this venture. This museum reflects the desire of so 
many women and men to reflect on the uncommon achievements that 
contributed to America's place in the world and their desire 
that the next generation know about those achievements as well.
    Now, more than ever, we believe Americans are eager for 
such a museum, not just mothers, wives, sisters, and daughters, 
but fathers, husbands, brothers, and sons as well. We believe 
the new leadership of the Smithsonian Institution also 
recognizes that. The Commission acknowledged that museums 
aren't built overnight and the project would require at least a 
10-year timeline, but we wanted to get going immediately. 
During the Commission's deliberations, we had a series of 
conversations with Smithsonian leadership. As a result, the 
Commission proposed that the first critical phase establish an 
entity called the American Women's History Initiative within 
the Smithsonian.
    We felt that this initiative would immediately make women's 
history a top priority across all of the Smithsonian's museums, 
and would be the first essential step toward a permanent 
museum. We are delighted that as a result of our 
recommendation, the Smithsonian immediately launched this first 
step in 2017, and our Commission was instrumental in securing 
the first $3 million to begin it. As you have heard from 
Secretary Lonnie Bunch, the initiative has been very successful 
over the past 4 years, and we are very grateful to the 
Smithsonian for taking the Women's History Initiative from an 
idea to reality.
    My fellow commissioners and I unanimously support Senate 
Bill 959. We ask each of you to join us and we encourage 
unanimous support from the entire Senate. I especially want to 
thank Senator Collins for sponsoring the Smithsonian American 
Women's History Museum Act and Senator Feinstein for being the 
original co-sponsor, along with the many members of this 
committee who are also co-sponsors. I appreciate the 
opportunity to testify this morning.
    I ask that the supporting documents and letters of support 
I have submitted and have been received by the Rules Committee 
be read into the record. I would be happy to answer any 
questions.
    [The prepared statement of Mrs. Abraham was submitted for 
the record.]
    Chairman Blunt. We will accept those things on the record, 
without objection.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Danny Vargas is the Chairman of the Friends 
of the National Museum of the American Latino. Mr. Vargas, we 
are glad to have you with us today.

  OPENING STATEMENT OF DANNY VARGAS, CHAIRMAN, FRIENDS OF THE 
             NATIONAL MUSEUM OF THE AMERICAN LATINO

    Mr. Vargas. Good morning, Chairman Blunt, Ranking Member 
Klobuchar, and members of the committee. Thanks for the 
opportunity to testify today. As a kid from the streets of 
Brooklyn, an Air Force veteran, an entrepreneur, and as a dad, 
it is truly humbling to be before you. However, today I am also 
representing our organization, our many supporters, nearly 61 
million Latinos in the United States, and we have received many 
letters of support from corporations, from organizations, 
academia, and individuals. We ask that those letters be entered 
into the record.
    As a patriot, I want America to reach its fullest 
potential, but to get there, we need to know where we came 
from. Sadly, much of what is in our history books and our 
National Museums is incomplete. Latinos have been vital in the 
founding, the building, the shaping, the defending of this 
Nation for over 500 years, but most Americans are unaware of 
these indispensable contributions. Our mission is to create a 
museum that illuminates the American story for the benefit of 
everyone, for a more complete and accurate telling of American 
history. Latinos have been settling communities in what is now 
United States territory since 1493. By the time the British get 
to Jamestown in 1607, there had already been a bunch of Latinos 
saying, bievenidos, what took you so long? America would be 
unrecognizable without the century's worth of Latino 
contributions, including our military.
    Latinos have fought in every war we have ever had, from 
Spanish General Galvez helping General Washington win the war 
of independence, to the first full Admiral of the United States 
Navy, David Farragut famously saying, damn the torpedoes, full 
speed ahead during the civil war, from the half million Latino 
troops in World War II to the Army 65th Infantry Regiment, the 
Borinqueneers of Puerto Rico and their legendary exploits in 
Korea, and the thousands of Hispanic surnames etched on the 
Vietnam Veterans Memorial Wall, from the young Latinos and 
Latinas serving and sacrificing on our behalf in the 
battlefields of Afghanistan and Iraq to the 60 Medal of Honor 
recipients. As an Air Force veteran myself, I can tell you that 
Latinos take a backseat to no one in the defense of liberty. 
Our community has had a lasting impact in every single aspect 
of society, from arts, to science to business, sports, politics 
and more.
    One of my personal heroes, Roberto Clemente, helped usher 
in the era of Latinos in baseball despite facing discrimination 
because he was both Latino and black. Lynda Carter, 
television's Wonder Woman in the 1970's, changed the face of 
strong women on TV. Before Brown v. Board of Education there 
was Mendez v. Westminster, which laid the groundwork for school 
desegregation.
    Throughout history, we have been relying on Latinos to 
fight our wars and to run our businesses, to tend our fields 
and to mend our wounds, to teach our kids, patrol our streets, 
and to share the word of God. Contrary to what some might 
believe, Latinos are not a recent patch being sewn onto the 
tapestry of America. We are an essential foundational thread 
woven into the very fabric of America. We are a wonderfully 
complex community today. We are over 18 percent of the 
population, $2 trillion in purchasing power.
    We are Afro Latinos, we are Asian Latinos, we are blond 
hair and blue eyed, we are mulattos and mestizos and Native 
Americans and everything in between. We are not a race. We are 
a culture. We are Republicans, Democrats, and independents. We 
have foundational shared values around family and faith and 
freedom and opportunity and optimism and pride and passion, and 
those are the qualities most in need in our country today. We 
also have a responsibility to inspire future generations. By 
2060, Latinos will make up 30 percent of the population. If we 
hope to remain a strong, thriving, and vibrant Nation, that 
segment of the population needs to feel acknowledged, engaged 
and invested in our future.
    This is about honoring our ancestors and inspiring our 
descendants. This initiative began 26 years ago when the 
Smithsonian task force found Willful Neglect in its portrayal 
of Latino stories. They recommended the creation of an American 
Latino Museum. In 2008, President Bush signed the bill creating 
the Commission to study the museum's feasibility, which I was 
appointed to by John Boehner. In 2011, we delivered our report 
to Congress and President Obama saying three basic things, 
there was a clear and pressing need for the museum, that it 
should be part Smithsonian Institution, and that it really 
ought to be on the National Mall. That year, we first 
introduced the authorization bill, and this year the House 
passed the American Latino Museum Act unanimously in a voice 
vote with 295 bipartisan co-sponsors.
    We now have 45 bipartisan co-sponsors for the Senate bill. 
We urge the committee to advance the bill and we urge the full 
Senate to pass the House bill by unanimous consent. The House 
bill includes language ensuring the diversity of political 
viewpoints, meaning this would be the first and only 
Smithsonian Museum in the Institution's 174 year history 
requiring the representation of various points of view, 
including the conservative viewpoint. We stand on the shoulders 
of the leaders who created previous ethnic museums. We have 
learned from their experiences, and I am confident in our 
ability to raise the funds needed to build a world-class 
institution.
    In closing, I have been involved with this initiative for 
the last 13 years. For me, it is a labor of love, a legacy 
initiative. It is about family. One day, God willing, I will be 
able to walk into this museum with my family and my two sons, 
Daniel and David. I have a vision of a young Latina born today 
in America and on her sixth grade field trip, she can come to 
DC and she can marvel at the monuments and she can visit 
Capitol Hill and she can go to the National Museums, including 
the American Latino Museum. She can see all these stories that 
I have been talking about and more. She can leave that museum 
not only proud to be a Latina, but proud to be an American.
    Thank you so much for the opportunity to testify and I 
would be happy to answer any questions you might have.
    [The prepared statement of Mr. Vargas was submitted for the 
record.]
    Chairman Blunt. Thank you, Mr. Vargas. It is great to see 
you again. Another friend of this committee, CiCi Rojas, who is 
the Chairman of the Latino Coalition, will be our next witness. 
Ms. Rojas.

 OPENING STATEMENT OF CICI ROJAS, CHAIR, THE LATINO COALITION 
                           FOUNDATION

    Ms. Rojas. Good morning, Chairman Blunt, and thank you, 
Ranking Member Klobuchar and members of the committee. Thank 
you for the opportunity to testify today. As a proud 
Midwesterner from Missouri, an engaged citizen who is working 
on many worthy projects in my community, and, most importantly, 
a mother, it is truly an honor to be before you to testify for 
such a meaningful project to our community.
    I also serve on the Friends of the National Museum of the 
American Latino with my board colleague Danny Vargas, whom you 
just heard from. However, I come before you today as the 
Chairman of the Latino Coalition Foundation, a National 
organization dedicated to providing Latino businesses a 
platform to thrive and shape public policy. Additionally, we 
strive to accomplish our mission by advocating for pinnacle 
efforts such as this. Latinos have contributed positively to 
every aspect of American history. They have impacted the areas 
of business, education, health, sports and, most recently, 
politics.
    The Latino community has probably enriched our Nation's 
competitiveness, culture, and prosperity through the 
generations. We are a diverse community with a wide range of 
viewpoints, work environments, and passion. Yet we possess the 
commonality of valuing the importance of culture, family, and 
patriotism. Therefore, we find it vital that we proudly share 
our incredible stories and celebrate a more complete telling of 
American history. Our community has certainly been essential to 
our Nation's past and will be integral to our current and 
future history. Here is a summary of some impressive facts that 
make Hispanic Americans critical to America. Our population 
size and growth. At nearly 60 million people, making up 18 
percent of the United States population, Latinos are the 
largest diverse population segment and account for over 50 
percent of total population growth from 2008 to 2018.
    Today, one in four or 25 percent of children under 18 is of 
Hispanic descent. Hispanics are projected to become 30 percent 
of the population by 2060. As a result, Latinos are becoming an 
economic force. In 2017, Hispanic households earned more than 
$1 trillion. This allowed them to pay more than $252.2 billion 
in Federal and local taxes. After taxes, Hispanic households 
held more than $781 billion in spending power. Latinos are a 
thriving business community and job creators. We are opening 
more small businesses faster than anyone else in the United 
States. With a total of 4.7 million Latino-owned businesses in 
the Nation, one in four new businesses are Latino-owned and 
provide 3 million jobs to workers in the United States. Over--
with over $2.3 trillion in 2018 gross domestic product, 
American Latinos are the 8th largest economy in the world.
    From a funding standpoint, it is equally important to note, 
the museum will be built utilizing a 50/50 model. 50 percent of 
the cost of construction of the museum will be raised through 
private funds by the museum's Board of Regents. The remaining 
50 percent of the costs will be appropriated by Congress. 
Additionally, the House bill added language to ensure diversity 
of political views, reflecting the diversity of our community 
as a whole. Although there will be many important stories 
enshrined in the museum, which will both highlight the 
struggles and resilience of this community, as well as 
celebrate the achievements of Latinos across all industries, 
the most important message is that the American--is that the 
Latino story is the American story, and as a Nation, we must 
honor the promise of what our country was built on and stands 
for.
    One such example of those great American stories that made 
a positive impact in the Latino American community is that of 
the late Hector Barrero Sr., a Midwesterner. Hector was 
originally born in Mexico City, Mexico in 1935. His American 
journey began in 1958 when he moved to West Central Missouri. 
After a series of hard and back-breaking jobs, he decided to do 
what many Americans dream of doing, be his own boss. He started 
his first enterprise, a Mexican restaurant, and then that 
establishment grew into another and then another.
    After success in business, he went on to help establish the 
United States Hispanic Chamber of Commerce. His journey to 
success is one of many Latinos whose tales are woven into the 
American history and whose essence will be captured within the 
walls of the National Latino--of the National Museum of the 
American Latino for generations to come.
    Thank you for this opportunity to be before you today, and 
I welcome your questions.
    [The prepared statement of Ms. Rojas was submitted for the 
record.]
    Chairman Blunt. Thank you, Ms. Rojas. Our last witness 
today, Eva Longoria, is an actor, an activist, a member of the 
Commission to Study the Potential Creation of a National Museum 
of the American Latino. Ms. Longoria, we are glad to have you 
with us today.

OPENING STATEMENT OF EVA LONGORIA BASTON, ACTOR, ACTIVIST, AND 
   MEMBER OF COMMISSION TO STUDY THE POTENTIAL CREATION OF A 
             NATIONAL MUSEUM OF THE AMERICAN LATINO

    Ms. Longoria. Thank you, Chairman Blunt. I appreciate this 
opportunity. Thank you, Ranking Member Klobuchar and committee 
members. It is my honor to be here alongside my fellow 
witnesses and community leaders, Danny Vargas, CiCi Rojas, and 
Jane Abraham. As a woman, as a Latina, and as a very proud 
ninth-generation American, I come before you as a citizen who 
lives at the intersection of the opportunities that we have 
gathered here to discuss, the establishment of the National 
Museum of the American Latino and the National Women's History 
Museum.
    If you look at our history textbooks, you look at our 
National monuments and our celebrated statues, they only 
reflect one kind of American hero, one that looks like our 
founding fathers, white and male.
    There are many other extraordinary Americans who are 
responsible for scientific breakthroughs, military feats, civil 
rights accomplishments, artistic achievements, and landmark 
legislation, but when you don't have representation in the 
official record, these contributions are effectively erased. 
Tens of millions of people visit Smithsonian museums each year, 
and they are presented with an incomplete picture of our 
Nation's history. When we allow this to go unaddressed, we 
maintain the status quo in which women and Latinos are left out 
of our collective perception of American history, relegated as 
sidekicks to white male heroes.
    Our history is only shared as a footnote or in relation to 
someone else's story like Dolores Huerta to Cesar Chavez, or 
Eleanor Roosevelt to FDR. That is why this legislation is 
presented to you today to correct the record.
    For women's history, the story of one statue sums this up. 
In February 1921, the National Women's Party presented Congress 
with a statue of Elizabeth Cady Stanton, Susan B. Anthony, and 
Lucretia Mott, three white pioneers of the women's suffrage 
movement. Their statue's inscription included a quote that 
asked for ``justice, not favor; men, their rights and nothing 
more; women, their rights and nothing less.''
    At the time, Congress deemed the inscription blasphemous 
and removed it from the statue and then moved the statue to the 
basement of Congress, where it remained for 76 years, out of 
public view and the eyes of three generations of American 
girls, three generations of young women who could have 
benefited from the display of this statue because of what it 
represented: women claiming their place in America's future.
    Thanks to decades of work by Congresswoman Carolyn Maloney 
and other dedicated women on both sides of the aisle, this 
monument now lives in the Rotunda of the United States Capitol, 
alongside statues of Martin Luther King Jr. and George 
Washington. Now, this statue of three white women is just one 
part of the story. It is not the whole story, which includes 
centuries of labor by black and white and Latina and Asian and 
indigenous activists. The struggle for recognition mirrors the 
battles we continue to fight today. Two centuries after the 
women's suffrage movement began, a lack of representation of 
women's place in history prevents us from moving forward on 
gender equality issues today, from wage gap to reproductive 
freedom to representation in boardrooms and government.
    If America can't recognize our past contributions, how can 
America respect our present significance? We won't achieve full 
gender equality until generations of girls and boys have the 
opportunity to see the complete picture of women's 
accomplishments, historic feats, and innovations which 
represent half of our Nation's story.
    I am not only here today as a woman, but as a Latina. 18 
percent of Americans identify as American Latinos, the largest 
minority ethnic group in the country. As Dr. Rudy Acuna wrote, 
history is not supposed to be ideological. It is truth deduced 
from known facts. For the Latino community, the facts are 
missing because there is no story in American history that does 
not include American Latinos. We have been here since before 
the Mayflower, since before the colonies, since before the 
Declaration of Independence. We have a broad and diverse 
community from indigenous Latinos to Black and Afro Latinos to 
Caribbean Latinos.
    We have built this country brick by brick, railroad by 
railroad, from seed to harvest. We did this alongside the folks 
who already have their place in history books and museums. 
Often those people were the very same people who oppressed us. 
Yet it is our story that isn't told, but now we have the 
chance. We have the chance to correct the record, to present a 
fuller, clearer picture of our diverse Nation. The Smithsonian 
Institution, the official record of our history and culture, 
has the opportunity to recognize the fact that Latinos are as 
essential to America's history as they are to America's future. 
Our institutions must be large enough to hold the truth and the 
expanse of American history and large enough to offer 
representation, inspiration, and the promise of a bright future 
to all of our Nation's people.
    When I served on the National Museum of the American Latino 
Commission, we traveled the country and we held town halls from 
Phoenix to Philadelphia. It was no surprise that there is very 
little representation of Latinos in our great museums across 
the country, but with each stop, members of the community 
offered heartfelt testimonials about the art and the artifacts 
and the stories that should live in a National Museum of the 
American Latino, but more than what it should contain, they 
shared what it would represent.
    Finally, an acknowledgment that we too are heroes in 
American history. We, too, are patriots. We too take pride in 
the country we have all built together. Without the museum, it 
is all too easy for some to write off the accomplishments of 
Latinos and our place in this Nation.
    It is easy to vilify us today and hold us back from 
claiming our place in history and hold us back from full 
equality as American citizens. To establish this museum on the 
National Mall, the place where we inaugurate our presidents, 
honor our veterans, exercise our freedom of speech, conduct 
business in our Nation and Congress, that would send the 
message that we belong among our Nation's most important 
monuments. We value the experience and contributions of 
Latinos, to the great American experiment.
    So, because by offering each and every American the 
opportunity to fully understand and appreciate women's and 
Latinos' contributions, we can collectively work toward the 
highest ideal of our Nation. E Pluribus Unum, out of many, one. 
Thank you for the opportunity to testify.
    [The prepared statement of Ms. Longoria was submitted for 
the record.]
    Chairman Blunt. Thank you very much. Thanks to all of our 
witnesses for really an outstanding and helpful testimony. We 
are in the middle of a series of votes on the floor, and so we 
are going to bring this to a conclusion here in a minute. I 
hope we all--that everybody that wants to has time to ask two 
or three questions. Let me start with that.
    Secretary Bunch, you have said in interviews that the most 
important work you have ever done was the opportunity to build 
the museum you built. What is the most important lesson you 
learned and the most important work you have ever done that 
might relate to these two questions we are looking at today?
    Mr. Bunch. In some ways, it is really two things. First, is 
that the American public has a thirst to understand itself, to 
understand itself fully, and by looking at the African-American 
experience, that was one of the ways we enriched the public 
understanding of our identity.
    Second, what was really clear to me is that this is 
something that the Smithsonian is good at, crafting a museum 
that is full of wonder, that is rife with scholarship, that 
inspires and educates. That, in essence, is part of the glue 
that holds the country together.
    What I learned more than anything else is that the 
Smithsonian has a responsibility to help America better 
understand itself, to look at its past clearly and candidly, to 
use that past to understand where we are today, and to use that 
past to point out toward a better tomorrow.
    Chairman Blunt. Well, thank you. That is, you are in a 
perfect position to give advice on this. As we would move 
forward with this legislation, do you believe it has everything 
it needs to have in it to launch the fundraising effort and the 
other effort that you are familiar with that needs to be made?
    Mr. Bunch. I think there are a couple of things that can be 
sharpened, but I think it is crucially important to have a 50/
50 funding mechanism. That is really key, but it is also 
important to recognize that there needs to be some significant 
resources up front to allow a museum to move forward, to think 
about how it builds a fundraising apparatus, to think about how 
it begins to bring people together, scholars and others, to 
think about what this museum could really be.
    I think it is also essential to find a way to better 
rationalize the way the public money was mixed with the private 
money. Is it a one to one ratio? What is the way to really 
ensure that you can plan based on what you know will be coming 
in the future? But I think that in many ways this is an 
opportune time to change the country by helping it better 
understand itself through the creation of these kinds of 
museums.
    Chairman Blunt. Well, good. I hope we have a chance to 
follow up on that in the very near future before we finalize 
this bill and look at the two things you just mentioned. Mrs. 
Abraham, I think you said in your testimony you thought that 
currently the Smithsonian was stepping up and telling this 
story in a better way in the likely decade we would have even 
if we went forward today. Am I right in characterizing your 
view of that?
    Mrs. Abraham. Yes, I do believe that the Smithsonian has 
implemented our first recommendation, which was to establish 
the initiative within the Smithsonian to do a better job of 
sharing the stories about women's history because we recognize 
as a Commission that it would take at least 10 years to be able 
to build a permanent museum.
    Looking at the African-American example of their museum and 
cultural center, being able to build much of that 
infrastructure and nucleus of the museum in the existing 
Smithsonian was critical. We felt it was the first important 
step. We are so proud that the Smithsonian embraced that and do 
believe that they are doing a very nice job as we move forward 
with establishing a permanent museum.
    Chairman Blunt. Ms. Rojas mentioned that the House bill had 
added language on the Latino, American Latino Museum, 
recognizing the importance of understanding the diversity of 
political views. Is there anything like that in the other bill 
or should there be?
    Mrs. Abraham. Well, there is on the House version. The 
Walker Amendment did something very, very similar to that. 
Certainly, I would support if in the Senate version there was a 
companion amendment. Let me just tell you, our eight 
commissioners could not have been more diverse politically.
    The topic of content was something that we discussed many, 
many times over the 18 months that we participated. We felt 
very strongly, which resulted in our unanimous recommendation, 
that this museum needed to represent all viewpoints on all 
issues. We would support, certainly, any strengthening 
amendment that the Senate felt necessary.
    Chairman Blunt. Thank you. I will have a couple of 
questions for the record for the other three witnesses, but if 
we are going to let other people ask questions, I need to stop 
at the end of my 5 minutes. I will. Senator Klobuchar.
    Senator Klobuchar. Thank you very much. Thank you, Senator 
Blunt. I moved over from the hearing room. Mostly, I wanted to 
show Director Bunch that I have art from the Weisman Art Museum 
in Minnesota on loan in my office. I appreciate your 
leadership, Mr. Bunch.
    I know the goal number four of the Smithsonian 
Institution's strategic plan discusses the need to understand 
and impact 21st century audiences. It reads exactly this, it 
says, ``we will tell the complete American story, in person and 
online, in all our museums, exhibits, and programs--and across 
them--with a focus on all Americans, Nationally and locally.''
    To me, the American Women's History Museum and the National 
American Latino Museum both embody the spirit of that goal. Do 
you agree?
    Mr. Bunch. I do indeed agree. I think it is crucially 
important that my career has really been about expanding the 
narrative and making sure we have a diverse, inclusive history. 
I think that has really always been the goal of the Smithsonian 
under my leadership. These museums can help us achieve that 
goal.
    Senator Klobuchar. I understand you have this backlog. You 
are very prudent about how to manage the museums. We appreciate 
that, but when the African-American Museum started you were so, 
of course, involved in all of this, did you have this kind of 
pushback and you have advice for all of us as we move forward 
on these two museums?
    Mr. Bunch. I think it is important to recognize that there 
is the great need to help the Smithsonian improve its backlog, 
but my notion has always been that with the right resources and 
creative leadership, the Smithsonian can do several things at 
once. It is really important to me to make sure that we 
maintain all that we have, but we are also open to the 
possibility of new.
    Senator Klobuchar. Very good. I think that is really 
important for us to remember. In my opening statement, I talked 
about how even during the Great Depression, that Roosevelt 
thought ahead and did the WPA. I have one of those Smithsonian 
murals actually in my personal office here, and thought ahead 
to the WPA murals that are such a big part of us not losing--
our soul.
    That is what I want to remember as we look at doing this 
during the middle of this economic crisis and pandemic. I turn 
to Ms. Longoria. Thank you so much for being here. I gave you 
some nice words at the beginning and thank you. You talk about 
how we depict our world to generations to come is going to 
matter to kids, Latino kids, is going to matter to little girls 
that they see that they are represented with their own museum.
    Ms. Longoria. Yes. Thank you, Senator Klobuchar. Thank you 
for all of your work. Look, representation matters, if we have 
learned anything. There is--it is a twofold benefit because it 
is important for everyone to see themselves reflected in our 
history and in our art so they can feel that their experiences 
are seen and understood; so they can be inspired to similar 
feats by people who look like them and sound like them. That is 
for young little girls and it is also for Latinos everywhere.
    But the second part is, it educates others about us, okay, 
and quality representation teaches us about each other. For 
some folks who don't have a Latino in their town, learning 
about journalist Gwen Ifill or labor rights leader Dolores 
Huerta, it teaches them about the values of our community, the 
values and strength of women, and it shares who we are and what 
we care about.
    I think it more importantly allows us to better understand 
and appreciate diverse viewpoints and shared priorities as 
Americans. That is what we are missing right now, I think, in 
our society. Those museums are not for women and for Latinos. 
It is going to be for everybody.
    Senator Klobuchar. We do appreciate the work that Secretary 
Bunch has done in terms of bringing these exhibits in, but I 
think so much--many of us would be so excited to actually get 
these museums. We have been talking about them for so long. I 
really appreciate also you brought up the statue and maybe I 
will end with this, you are somehow competing, Ms. Longoria, 
with Mark Zuckerberg and Dorsey in a judiciary hearing I have 
going on at the same time but I prioritized you.
    Ms. Longoria. Thank you.
    Senator Klobuchar. I love that you brought up that statue 
because I don't know that everyone knows about this, that this 
was presented to Congress in 1921 with the suffragettes. Of 
course, it didn't have full representation of votes, but it had 
this inscription that read, ``Justice, not favor, men their 
rights and nothing more, women, their rights and nothing 
less.'' It was these three women and it got put in the basement 
of the Senate as an attempt to erase especially the words that 
were at the bottom of the statute that were considered 
blasphemous at the time.
    I do want you to know is we have gotten the statue out of 
the basement, our first step, and are bringing it up and 
restoring it where it belongs, but I want to let you know that 
and thank you for your work. Thank you to all the witnesses. I 
know we are not going to be able to do a second round because 
of the vote schedule and other things, but thank you so much to 
all of you. I am really excited to get moving and look forward 
to working with the Smithsonian.
    Chairman Blunt. Thank you, Senator Klobuchar.
    Ms. Longoria. Thank you, Senator.
    Chairman Blunt. I am not--I don't believe any other Member 
is waiting to ask questions. I have one other question, if they 
don't. I think everybody is on the floor at this at this point 
or headed to the floor to vote. Thinking about the next 10 
years, Ms. Rojas and Mr. Vargas, are you comfortable with the 
way the story is being moved in a new direction as to how we 
tell it?
    Is there enough input in telling the story, the Latino 
story, as part of the current structure of the Smithsonian? Ms. 
Rojas? Have you been asked for input on that? That would be 
another part of that question for both of you.
    Ms. Rojas. Yes, well, yes and I will turn to my colleague, 
Mr. Vargas, as well, but yes, I believe that we have been able 
to--this has been a journey, obviously. We have been very 
actively seeking input and content along the way and with 
advocates like Ms. Longoria. You know, we have many people that 
are also thinking about this actively and how we can make--how 
we can create the most robust storytelling that we can and 
obviously trying to project out, you know, who we should be 
talking to now for what, you know, because as you said, 2034.
    We have to certainly be curating all the potential content 
that we believe, but I think we have--I believe we have great 
resources and talent. Thinking about that, Danny, I would ask 
you as well to weigh in.
    Mr. Vargas. Thank you--we applaud strongly the efforts of 
the Smithsonian Latino Center. They have done wonderful work in 
terms of making sure that they are able to build a bench of 
curators and professionals within the museum community. They 
are incorporating exhibits into other Smithsonian Institution 
museums. They have got the Molina Gallery coming up soon.
    We strongly support their efforts and we applaud what they 
have been able to do, but I will tell you, as one of the former 
commissioners on the Commission, we travel all over the country 
reaching out to audiences from California to New York and 
Puerto Rico and everything in between. What we heard was that 
there was a strong need and desire to be able to tell this 
incredibly complex story. This is a story of not just the 
origin of the United States of America, but also the ongoing 
evolution of the Latino community in the country, 23 or 24 
different countries of origin over time, the diaspora.
    It is a complex, multidimensional journey through time and 
space. To be able to tell that story well is going to require a 
full museum, full complement of museum professionals and 
curators. I think the Latino Center is an important, 
significant first step, but until we have a full museum over 
the next 10 years or so, I think that story is still yet to be 
told well and completely.
    Chairman Blunt. Well, thank you. Thanks to all of our 
witnesses. The record will remain open for 1 week from today. 
The committee is adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
